KANNON K. SHANMUGAM
TELEPHONE
FACSIMILE

(202) 223-7325
(202) 204-7397

E-MAIL: kshanmugam@paulweiss.com

August 17, 2021

BY U.S. MAIL AND ELECTRONIC FILING
Mr. Scott Harris
Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
Re:

City of Austin v. Reagan National Advertising of Austin, Inc., et al.,
No. 20-1029

Dear Mr. Harris:
I am writing on behalf of all respondents in connection with the abovecaptioned matter. We respectfully request a nine-day extension of time of the
deadline for respondents, up to and including September 22. The current deadline
is September 13. I have consulted with counsel for petitioner, who consents to the
proposed extension of time. Should you need any additional information, please do
not hesitate to let me know.
Yours sincerely,

Kannon K. Shanmugam

cc:

Renea Hicks, Esq. (by U.S. mail)

